                                             NATIONAL SCIENCE FOUNDA
                                              OFFICE OF INSPECTOR GENE
                                                OFFICE OF INVESTIGATIONS

                                    ,   CLOSEOUT MEMORANDUM

    Number: A06070036



    In July 2006, an NSF program officer1 received allegations of misuse of grant funds, intellectual
    theft, and plagiarism via email and brought it to our office. The complainant2 alleged the
    subject3 incorporated his ideas and text into an NSF proposal4 without his knowledge or consent.
    The complainant also alleged that the subject misspent funds from a previous NSF grant5, on
    which the subject was the PI and the complainant was co-PI, on travel and entertainment
    expenses.

    We interviewed the complainant to gather more information about the allegations. Regarding the
    allegedly misspent grant funds, we determined that the subject did not seek the complainant's
    permission to reallocate grant funds for travel to a conference. As the PI, the subject did not
    need the co-PI'S permission to reallocate funds, and we concluded she did not mismanage the
    grant funds by doing so. Regarding the entertainment expenses, the complainant had historically
    paid for student conference lunches out of his pocket, but the subject charged them to the grant.
    This is an allocable, allowable, and reasonable participant support charge for this grant and did
    not constitute misspending.

    We provided a copy of the proposal to the complainant and requested he identify the allegedly
    plagiarized text, explain whether the existing references provided appropriate credit, and provide
    documentation to support his allegation. In his response, he identified the allegedly plagiarized
    ideas and text, but did not fully elaborate on the adequacy of the existing references, and did not
    provide documentation to support his allegation. The complainant said there was no written
    documentation supporting his allegation of intellectual theft, but a third person, who was present
    at a meeting when the complainant presented his ideas, would support his allegation.

    We reviewed the text the complainant identified as plagiarized. The subject had referenced most       '


.   of the questioned text, including citations to the complainant's work. A curriculum was
    developed for their previous grant, and the complainant had taught a course utilizing it. The
    subject made use of his course notes in her current proposal, but adequately referenced the
    complainant's unpublished notes. The complainant had said the subject had used his notes
    without his permission. Generally, one doesn't need permission to use another's work as long as
    it is properly cited.. In this case, the subject was the PI of the grant on which the notes were
    developed and were properly referenced.
I




                                             NATIONAL.SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL


                                       CLOSEOUT MEMORANDUM




    In conclusion, we determined the subject did not illegally spend funds from her previous grant
    and the subject sufficiently referenced the text in her proposal. In addition, there is no written
    documentation supporting the allegation of intellectual theft, so we conclude there is insufficient
    evidence to proceed with an investigation. Accordingly, this case is closed.




                                                     .,.    .   --                          ~      ... . ...-....- .   -.-
